           Office of Inspector General




August 4, 2004

LYNN MALCOLM
ACTING VICE PRESIDENT, FINANCE, CONTROLLER

WILLIAM P. GALLIGAN
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report - Fiscal Year 2003 Financial Installation
         Audit – Post Offices, Branches, and Stations
         (Report Number FF-AR-04-247)

This report presents the results of our financial installation audit of statistically
selected post offices, branches, and stations for fiscal year (FY) 2003 (Project
Number 03XD004FF000). This audit was conducted in support of the audit of the
Postal Service financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records, and, generally, the internal controls we examined
were in place and effective at 105 of the 110 units. However, the units need to increase
compliance with certain Postal Service procedures, including those related to
accountability and Voyager Cards. Further, at five units, accounting records were not
reasonably and fairly presented, and internal controls were not in place and effective.
This resulted in a shortage of $59,852 in the retail floor stock at one-unit and
accountability discrepancies in excess of $19,000 of the total accountability of
approximately $69,000 at another unit. For 4 of 110 units, we could not confirm their
accountability, trust, and suspense balances with the balances maintained in the Postal
Service’s accounting records during fieldwork because of the Postal Service’s
conversion to Shared Services/Accounting and Standard Accounting for Retail. After
we completed fieldwork at these four units, the Postal Service established a process to
verify these FY 2003 balances.

We recommended management reinforce procedures for accountability examinations,
bank deposits, stock levels, stock requisitions,                    ,




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
duplicate keys and key verifications, inventories of nonaccountable merchandise, post
office boxes, and business mail acceptance. Management agreed with our findings and
recommendation and the actions taken or planned should correct the issues identified in
the finding. Management’s comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, or need additional information, please contact Sheila Bruck
or me at (703) 248-2300.


(Ronald D. Merryman for)

Colleen A. McAntee
Deputy Assistant Inspector General
 for Financial Management

Attachment

cc: Patrick R. Donahoe
    Richard J. Strasser, Jr.
    John A. Rapp
    John R. Wargo
    Frederick J. Hintenach
    Margaret A. Weir
    Gladys E. Zamora
    Jon T. Stratton
    Maria Madocks
    Joseph K. Moore
Fiscal Year 2003 Financial Installation Audit –                      FF-AR-04-247
 Post Offices, Branches, and Stations




                                      TABLE OF CONTENTS


Executive Summary                                                         i

Part I

Introduction                                                              1

    Background                                                            1
    Objectives, Scope, and Methodology                                    2
    Prior Audit Coverage                                                  3

Part II

Audit Results                                                             4

   Increased Compliance With Postal Service Procedures is Needed          4
   Recommendation                                                         6
   Management’s Comments                                                  6
   Evaluation of Management’s Comments                                    6

   Voyager Card Procedures Were Not Followed                              7

Appendix A.       Sites Visited                                          8
Appendix B.       Count Results                                         12
Appendix C.       Sampling Methodology                                  13
Appendix D.       Management’s Comments                                 15




                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                      FF-AR-04-247
 Post Offices, Branches, and Stations


                                     EXECUTIVE SUMMARY
 Introduction                     This report summarizes the results of our audits of
                                  110 statistically selected post offices, branches, and
                                  stations for fiscal year (FY) 2003. The Postal
                                  Reorganization Act of 1970 requires annual audits of the
                                  Postal Service’s financial statements. We conducted these
                                  audits in support of the audit of the Postal Service financial
                                  statements. The audits at each of the post offices,
                                  branches, and stations were unannounced.

                                  The overall objectives of our audit were to determine
                                  whether financial transactions of field operations were
                                  reasonably and fairly presented in the accounting records,
                                  and whether internal controls were in place and effective at
                                  the 110 statistically selected post offices, branches, and
                                  stations.

 Results in Brief                 Based on the items we reviewed, financial transactions
                                  were reasonably and fairly presented in the accounting
                                  records, and, generally, the internal controls we examined
                                  were in place and effective at 105 of the 110 units.
                                  However, the units need to increase compliance with certain
                                  Postal Service procedures, including those related to
                                  accountability and Voyager Cards. Further, at five units,
                                  accounting records were not reasonably and fairly
                                  presented and internal controls were not in place and
                                  effective. This resulted in a shortage of $59,852 in the retail
                                  floor stock at one-unit and accountability discrepancies in
                                  excess of $19,000 of the total accountability of
                                  approximately $69,000 at another unit. For 4 of 110 units,
                                  we could not confirm the unit accountability, trust, and
                                  suspense balances with the balances maintained in the
                                  Postal Service’s accounting records during fieldwork
                                  because of the Postal Service’s conversion to Shared
                                  Services/Accounting and Standard Accounting for Retail.
                                  After we completed fieldwork at these four units, the Postal
                                  Service began to establish a process to verify these
                                  FY 2003 balances.

 Summary of                       We recommended management reinforce procedures for
 Recommendations                  accountability examinations, bank deposits, stock levels,
                                  stock requisitions,                    , duplicate keys and
                                  key verifications, inventories of nonaccountable




                                                       i
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                      FF-AR-04-247
 Post Offices, Branches, and Stations




                                                       ii
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                      FF-AR-04-247
 Post Offices, Branches, and Stations




                                  merchandise, post office boxes, and business mail
                                  acceptance.

 Summary of                       Management agreed with our recommendation, and stated
 Management’s                     that a memo will be issued by September 15, 2004, to the
 Comments                         Vice Presidents, Area Operations, to reiterate current
                                  policies related to our audit findings and that all published
                                  internal control measures are enforced. Management’s
                                  comments, in their entirety, are included in Appendix D of
                                  this report.

 Summary of                       Management’s actions taken or planned are responsive to
 Evaluation of                    the recommendations and should correct the issues
 Management’s                     identified in the finding.
 Comments




                                                      iii
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                                                 FF-AR-04-247
 Post Offices, Branches, and Stations


                                                 INTRODUCTION
    Background                         Beginning with fiscal year (FY) 2001, the Office of Inspector
                                       General (OIG) assumed responsibility from the Postal
                                       Inspection Service for conducting financial audits at
                                       three levels of financial installations: revenue-generating
                                       units,1 stamp distribution offices, and district accounting
                                       offices. These audits were conducted in support of the
                                       overall audit of the Postal Service financial statements.

                                       Post offices are the initial level where revenue is generated
                                       from Postal Service operations and include main offices,
                                       branches, and stations. Overall, the postmaster or
                                       installation head is responsible for collecting all receipts to
                                       which the office is entitled, accounting for all funds, and
                                       ensuring that the office meets all accounting objectives.
                                       Financial activities at these installations include, among
                                       others: business reply and postage due mail, post office
                                       box and caller services, money orders, customs, and post
                                       office meters. Handbook F-1, Post Office Accounting
                                       Procedures, November 1996 (updated through May 1,
                                       2003), sets forth the procedures postmasters or other
                                       installation heads must follow to meet the financial
                                       responsibilities of the installation.

                                        Post offices manage accountable paper, which includes
                                        postage stock, nonpostal stamps, and philatelic products,
                                        using either segmented inventory accountability procedures
                                        or individual accountability procedures. Under segmented
                                        inventory accountability procedures, sales and service
                                        associates retain accountability for cash, but share a
                                        common stamp stock inventory, known as the retail floor
                                        stock. Under individual accountability, sales and service
                                        associates are issued accountable paper and cash as a
                                        stamp credit.

                                       In FY 2003, the Postal Service completed its migration from
                                       the Standard Field Accounting System to the Standard
                                       Accounting For Retail (SAFR) System. SAFR is a system
                                       for improving the collection and reporting of Postal Service
                                       financial information. The new system allows for more
                                       timely and centralized reconciling, daily reporting at the unit
                                       level, and improved processing of interface errors. The

1
    Includes post offices, contract postal units, self-service postal centers, and business mail entry units.




                                                              1
                                                   Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                       FF-AR-04-247
 Post Offices, Branches, and Stations


                                  Postal Service also completed migration to Shared
                                  Services/Accounting in FY 2003. The Shared
                                  Services/Accounting initiative was intended to streamline
                                  processes that automated the district accounting functions
                                  and enhanced efficiencies within the accounting process.
                                  The residual activities of the district accounting office were
                                  migrated to the three accounting service centers.

 Objectives, Scope,               The overall objectives of our audit were to determine
 and Methodology                  whether financial transactions of field operations were
                                  reasonably and fairly presented in the accounting records
                                  and whether internal controls were in place and effective.

                                  To accomplish our objectives, we conducted fieldwork
                                  during FY 2003. The audits at each of the units were
                                  unannounced. We statistically selected 110 post offices,
                                  branches, and stations for review (see Appendix A) from a
                                  population of 35,146 units. Of these 110 units, 70 used
                                  segmented inventory accountability procedures, and
                                  40 used individual accountability procedures. For 4 of
                                  110 units, we could not verify unit records for accountability,
                                  trust, and suspense balances at the time of our fieldwork
                                  because the Postal Service had not implemented the
                                  processes to conduct the reconciliations, as prescribed in
                                  the Shared Services/Accounting Postmasters/Field Guide
                                  and other guidance.

                                  To accomplish our objectives, we traced recorded financial
                                  transactions to and from supporting documentation and
                                  observed procedures for compiling and transmitting financial
                                  data. We also evaluated whether internal control over
                                  financial reporting and safeguarding of assets was
                                  implemented and functioning as designed.

                                  We conducted this audit from October 2002 through
                                  August 2004 in accordance with generally accepted
                                  government auditing standards, except as noted above, and
                                  included tests of internal controls as were necessary under
                                  the circumstances. We discussed our observations and
                                  conclusions with management officials and included their
                                  comments, where appropriate. We issued individual reports
                                  to management at each statistically selected site.




                                                       2
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                                    FF-AR-04-247
 Post Offices, Branches, and Stations



    Prior Audit Coverage          The Postal Inspection Service conducted financial
                                  installation audits prior to FY 2001. We evaluated all
                                  findings reported by the Postal Inspection Service in
                                  individual site reports from FYs 1998 through 2000 and by
                                  the OIG in FYs 2001 and 2002, and reported the status of
                                  the recommendations in the individual site reports.

                                  In our FY 2002 summary report on post offices, branches,
                                  and stations,2 we reported that management could
                                  strengthen its internal controls over stamps, cash, and
                                  money orders to reduce future losses. Management took
                                  corrective actions and issued a memorandum dated June 6,
                                  2003, from the Vice President, Finance, Controller, to the
                                  Area Vice Presidents to reiterate the need for adherence to
                                  current policies and procedures over cash and stamp
                                  accountability. Further, management published an article in
                                  Postal Bulletin 22104 specifying the enforcement of current
                                  procedures. While improvements were made in some
                                  areas, the conditions we identified in the FY 2002 audit still
                                  existed, as disclosed in our report.




2
 Fiscal Year 2002 Financial Installation Audit - Post Offices, Branches, and Stations (Report Number FF-AR-03-142,
March 21, 2003).




                                                        3
                                             Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                     FF-AR-04-247
 Post Offices, Branches, and Stations


                                          AUDIT RESULTS
 Increased                        Units did not always adhere to procedures over stamps, cash,
 Compliance With                  money orders, retail merchandise, post office boxes, and
 Postal Service                   business mail acceptance. Issues related to stamps, cash,
 Procedures is                    and money orders were also reported in our FYs 2001 and
 Needed                           2002 summary reports. While improvements were made in
                                  some areas, we identified a continued lack of compliance with
                                  prescribed procedures.

                                  Overall, managers and employees did not give sufficient
                                  priority to ensuring the controls established by the Postal
                                  Service were functioning adequately and in some instances,
                                  employees were unaware of prescribed procedures. Lack of
                                  adherence to prescribed controls can cause discrepancies in
                                  stamps and cash and an increased risk of loss of Postal
                                  Service revenue and assets. Appendix B gives the results of
                                  our counts of stamps and cash at the individual units.

                                  The Postal Service has developed additional tools to monitor
                                  and ensure compliance with prescribed procedures, such as
                                  the development of the Internal Control Group and
                                  intervention teams established in 2002 to increase
                                  compliance with examination requirements for retail floor
                                  stock. However, continued adherence to requirements is
                                  important to ensure that assets and accountable items are
                                  properly safeguarded.

                                  The specific conditions disclosed during our audits are set
                                  forth below.

                                  Accountability Examinations: At 67 of 110 units,
                                  management did not conduct counts of the unit reserve,
                                  retail floor stock, and cash retained at the required
                                  frequencies and at 38 units, they did not always document
                                  the counts as prescribed. Further, at 14 of 110 units,
                                  accountability discrepancies were not recorded correctly. In
                                  some instances, employees retained overages rather than
                                  placing them in trust. Handbook F-1, Post Office Accounting
                                  Procedures, Chapter 4, gives the requirements for conducting
                                  and documenting counts and recording accountability
                                  discrepancies.




                                                       4
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                      FF-AR-04-247
 Post Offices, Branches, and Stations



                                  Procedures for Preparing Bank Deposits: At 28 of
                                  110 units, employees did not follow procedures for preparing
                                  bank deposits by ensuring deposits were properly witnessed.
                                  Handbook F-1, Section 333.2, requires the closeout
                                  employee and a witness to count the funds.

                                  Excess Stock: Of the 70 units that used segmented
                                  inventory accountability procedures, 7 maintained retail floor
                                  stock inventories in excess of a two-week sales limit and did
                                  not adequately restrict access to the floor stock, as prescribed
                                  by Handbook F-1, Chapter 4.

                                                         :



                                  Duplicate Keys and Key Verifications: At 40 of
                                  110 installations, employees did not properly prepare
                                  Postal Service (PS) Forms 3977, Duplicate Key Envelope,
                                  as required by Handbook F-1, Section 372. Further, annual
                                  key reviews were not conducted at 54 of 110 units.
                                  Handbook F-1, Section 426.28, requires unit supervisors to
                                  make annual examinations of all locks and keys in order to
                                  safeguard each clerk’s stamp and cash credit.

                                  Nonaccountable Retail Merchandise: At 48 of 110 units,
                                  management did not conduct an inventory of nonaccountable
                                  retail merchandise every Postal Service quarter, as
                                  prescribed by Handbook F-1, Section 77.

                                  Post Office Boxes: Units did not always adhere to
                                  prescribed procedures for post office boxes. Specifically:

                                  •   Employees at 61 of 110 units did not perform semiannual
                                      mail volume reviews, as required by the Postal Operations
                                      Manual, Issue 9, Section 841.13.

                                  •   Employees at 31 of 110 units did not perform the annual
                                      comparison of post office boxes to the master list, as
                                      required by the Postal Operations Manual, Issue 9,
                                      Section 841.62.

                                  •   Supervisors at 19 of 110 units did not ensure an adequate




                                                       5
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                     FF-AR-04-247
 Post Offices, Branches, and Stations


                                      separation of duties between employees who accepted
                                      payment and those who recorded the information for each
                                      post office box, as prescribed by Handbook F-1,
                                      Section 132.1.

                                  Business Mail Acceptance: Of the 597 postage statements
                                  we reviewed, employees did not always complete Postal
                                  Service sections or ensure that mailers completed required
                                  information on 101 statements, as prescribed by
                                  Handbook DM 109, Business Mail Acceptance, August 1999
                                  (updated through January 2000).

 Recommendation                   We recommend the Acting Vice President, Finance,
                                  Controller, and the Acting Vice President, Delivery and Retail:

                                      1. Reinforce procedures for accountability examinations,
                                         bank deposits, stock levels, stock requisitions,
                                                                , duplicate keys and key
                                           verifications, inventories of nonaccountable
                                           merchandise, post office boxes, and business mail
                                           acceptance.

 Management’s                     Management agreed with our recommendation, and stated
 Comments                         that a memo will be issued by September 15, 2004, to the
                                  Vice Presidents, Area Operations, to reiterate current policies
                                  related to our audit findings and that all published internal
                                  control measures are enforced.

 Evaluation of                    Management’s actions taken or planned are responsive to the
 Management’s                     recommendation should correct the issues identified in the
 Comments                         finding.




                                                       6
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                     FF-AR-04-247
 Post Offices, Branches, and Stations




 Voyager Card                     Units did not always follow procedures for Voyager Cards and
 Procedures Were Not              transactions. Specifically, at 15 of 110 units, employees did
 Followed                         not reconcile Voyager Cards according to procedures, and at
                                  18 of 110 units, they did not adequately maintain the master
                                  list of personal identification numbers of current employees.
                                  At many locations, employees were unaware of the
                                  requirement to conduct reconciliations or the procedures for
                                  updating the master list of personal identification numbers. In
                                  other instances, employees were aware of the requirements,
                                  but other duties took priority over adherence to prescribed
                                  controls. As a result, for 145 of the 1,344 transactions we
                                  reviewed, the units did not ensure that receipts were
                                  maintained.

                                  The Site Fleet Card Guide for the United States Postal
                                  Service (site guide), July 15, 2001, is published by Voyager
                                  and details program controls. Specifically, it provides that
                                  individual Voyager Cards be assigned to individual vehicles in
                                  a one-on-one relationship. Individual cards may be used only
                                  for the specified vehicle; unique personal identification
                                  numbers are assigned to individual drivers in a one-on-one
                                  relationship; and although a driver may use various vehicles
                                  and cards, personal identification numbers may not be
                                  shared, and may be used only by the assigned individual.

                                  On September 8, 2003, the OIG issued audit report
                                  TD-AR-03-012, Voyager Card Controls – National Analysis,
                                  which disclosed control weaknesses related to reconciliations,
                                  segregation of duties, personal identification numbers, and
                                  card protection. In that report, we recommended the
                                  Vice Presidents, Supply Management, and Delivery and
                                  Retail, work together to provide guidance, internal controls,
                                  training, support, and oversight to protect the Postal Service
                                  Voyager Card program from improper, fraudulent, or
                                  questionable purchases. Consequently, we will not make any
                                  recommendations for corrective action at this time,. However,
                                  we made recommendations for corrective action to district
                                  managers in the individual site reports where this finding was
                                  observed. We continue to evaluate this issue in the FY 2004
                                  financial installation audits.




                                                       7
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                                 FF-AR-04-247
 Post Offices, Branches, and Stations


                                 APPENDIX A. SITES VISITED


        Number                     POST OFFICE                           CITY             STATE
            1      Alameda Station                                Los Angeles      California
            2      Amherst Branch                                 Buffalo          New York
            3      Arcadia                                        Arcadia          Kansas
            4      Arispe                                         Arispe           Iowa
            5      Austin                                         Austin           Arkansas
            6      Avon Lake                                      Avon Lake        Ohio
            7      Avon Park                                      Avon Park        Florida
            8      Boring                                         Boring           Oregon
            9      Calumet Main Office                            Calumet          Michigan
           10      Carrabelle                                     Carrabelle       Florida
           11      Casper Downtown Station                        Casper           Wyoming
           12      Chadds Ford                                    Chadds Ford      Pennsylvania
           13      Chicago Cardiss Collins Postal Store           Chicago          Illinois
           14      Chimacum                                       Chimacum         Washington
           15      Cleveland Main Office                          Cleveland        Ohio
           16      Columbus Main Office                           Columbus         Ohio
           17      Concord Main Post Office                       Concord          California
           18      Dallas Main Post Office                        Dallas           Texas
           19      Dallas Main Post Office Bulk Stamp Credit      Dallas           Texas
           20      Denver Downtown                                Denver           Colorado
           21      Downers Grove                                  Downers Grove Illinois
           22      Dubuque                                        Dubuque          Iowa
           23      Dyer                                           Dyer             Nevada
           24      Eagle Station                                  Bloomington      Illinois
           25      Eastside Station                               St Joseph        Missouri
           26      Edison                                         Edison           New Jersey
           27      Ellinwood                                      Ellinwood        Kansas
           28      Farmingdale                                    Farmingdale      New York
           29      Festus                                         Festus           Missouri
           30      Fort Lauderdale                                Fort Lauderdale Florida
                                                                                  District of
           31      Fort McNair Station                            Washington      Columbia
           32      Fort Worth                                     Fort Worth       Texas




                                                        8
                                             Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                                 FF-AR-04-247
 Post Offices, Branches, and Stations


           33      Fox Creek Station                              Detroit          Michigan
           34      Gaines                                         Gaines           Michigan
           35      General Main Facility Finance Station          Detroit          Michigan
           36      Gustine                                        Gustine          California
           37      Hartford Main Post Office                      Hartford         Connecticut
           38      Hatboro Main Post Office                       Hatboro          Pennsylvania
           39      Hazleton                                       Hazleton         Indiana
           40      Hicksville                                     Hicksville       New York
           41      Hillcrest Station                              San Diego        California
           42      Hollins College Branch                         Roanoke          Virginia
           43      Holly                                          Holly            Colorado
           44      Hopkins                                        Hopkins          Minnesota
           45      Houston                                        Houston          Texas
           46      Indianapolis Main Office Window Service        Indianapolis     Indiana
           47      James C. Brown Jr. Facility                    Las Vegas        Nevada
           48      Jersey City Main Office                        Jersey City      New Jersey
           49      Kayenta                                        Kayenta          Alaska
           50      Kent Main Post Office                          Kent             Pennsylvania
           51      La Grange                                      La Grange        Kentucky
           52      Lansing Main Office Window                     Lansing          Michigan
           53      Leadville                                      Leadville        Colorado
           54      Los Angeles Main Office                        Los Angeles      California
           55      Margaret L. Sellers Main Post Office           San Diego        California
           56      Mariners Harbor                                Staten Island    New York
           57      Marion                                         Marion           Texas
           58      McClellanville                                 McClellanville   South Carolina
           59      McCoy                                          McCoy            Virginia
           60      Merrifield                                     Merrifield       Virginia
           61      Midtown Station                                Toledo           Ohio
           62      Minneapolis Main Post Office                   Minneapolis      Minnesota
           63      Mira Vista Station                             Richmond         California
           64      Moneta                                         Moneta           Virginia
           65      Myrtle Beach Main Post Office                  Myrtle Beach     South Carolina
           66      Nenana                                         Nenana           Arkansas
           67      New Ringgold                                   New Ringgold     Pennsylvania
           68      New York Main Office                           New York         New York




                                                        9
                                             Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                                 FF-AR-04-247
 Post Offices, Branches, and Stations


           69      Ocean Beach Station                           Ocean Beach      California
           70      Okeechobee                                    Okeechobee       Florida
           71      Otoe                                          Otoe             Nebraska
           72      Paauilo                                       Paauilo          Hawaii
           73      Pattonsburg                                   Pattonsburg      Missouri
           74      Phoenix Main Office Window Service            Phoenix          Arizona
           75      Piney Woods                                   Piney Woods      Mississippi
           76      Pleasantville                                 Pleasantville    Ohio
           77      Portal                                        Portal           Georgia
           78      Portland                                      Portland         Oregon
           79      Riceboro                                      Riceboro         Georgia
                   Richmond Main Post Office Window
           80      Operations                                    Richmond         Virginia
           81      Rimpau Station                                Los Angeles      California
           82      Rockville                                     Rockville        Maryland
           83      Roseville                                     St. Paul         Minnesota
           84      Rydal Branch                                  Rydal            Pennsylvania
           85      Salt Lake City Main Post Office               Salt Lake City   Utah
                   San Antonio General Mail Facility Window
           86      Unit                                          San Antonio      Texas
           87      San Bernardino Window Service Unit            San Bernardino California
           88      Santa Ana Window Section                      Santa Ana        California
           89      Scranton                                      Scranton         Pennsylvania
                                                                 South
           90      South Hackensack Branch                       Hackensack       New Jersey
           91      Southside Station                             Paducah          Kentucky
           92      St. Louis Main Office Finance                 St. Louis        Missouri
           93      Station A                                     San Antonio      Texas
           94      Sun Valley Station                            Sparks           Nevada
           95      Sycamore                                      Sycamore         Ohio
           96      Syosset                                       Syosset          New York
                                                                 South Lake
           97      Tahoe Valley Station                          Tahoe            California
           98      Tontitown                                     Tontitown        Arkansas
           99      Tucson Davis Monthan                          Tucson           Arizona
          100      Ventura Main Post Office                      Ventura          California
          101      Wallace                                       Wallace          Nebraska
          102      West Caldwell                                 West Caldwell    New Jersey




                                                      10
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                                FF-AR-04-247
 Post Offices, Branches, and Stations


          103      West Cornwall                                 West Cornwall    Connecticut
          104      Weston Branch                                 Weston           Massachusetts
          105      Williamstown                                  Williamstown     New Jersey
          106      Wilmington                                    New Castle       Delaware
          107      Winder                                        Winder           Georgia
          108      Woodland Hills                                Woodland Hills   California
          109      Worth                                         Worth            Illinois
          110      Wyaconda                                      Wyaconda         Missouri




                                                      11
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                              FF-AR-04-247
 Post Offices, Branches, and Stations


                              APPENDIX B. COUNT RESULTS

Accountability                              Number Counted           Exceptions
Cash Retained by
                                                    616                209
Associates
Individual Stamp Credits                            107                 36
Retail Floor Stock                                   70                 37
Unit Reserve                                        110                 19




                                                      12
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                                FF-AR-04-247
 Post Offices, Branches, and Stations



                     APPENDIX C. SAMPLING METHODOLOGY

In support of the objectives, the audit team employed a stratified random sample of post
offices (units). The sample design allows statistical projection of the number of units
with the types of internal control deficiencies that were the subject of the audit.
Separate projections were made for each category of internal control deficiency. The
audit universe consisted of 35,146 post offices. The universe was obtained from the
Standard Field Accounting Unit Revenue Data Access (SURDA) database.

The sample size of 110 post offices was based on a stratified attributes design. For the
analysis of post offices alone, those 110 units constituted the total sample and were
further allocated to each of three revenue-based strata. The sample size of 110 is
equivalent to that required to achieve a planned relative precision of approximately
5 percent at the 95-percent reliance level, with a low rate of noncompliance for controls
tested.

Based on the sample results, we project the following:

•   We are 95 percent confident that reconciliation procedures were not conducted at
    between 820 (2.3 percent) and 4,136 (11.8 percent) units. The point estimate is
    2,478 (7.0 percent) units.

•   We are 95 percent confident that the master list of personal identification numbers of
    current employees was not adequately maintained at between 1,092 (3.1 percent)
    and 4,573 (13.0 percent) units. The point estimate is 2,833 (8.1 percent) units.

•   We are 95 percent confident that Postal Service sections on postage statements
    were not always completed at between 318 (0.9 percent) and 5,641 (16.1 percent)
    units. The point estimate is 2,980 (8.5 percent) units.

•   We are 95 percent confident that counts of unit reserve, retail floor stock, and cash
    retained were not documented at between 6,156 (17.5 percent) and
    14,463 (41.2 percent) units. The point estimate is 10,310 (29.3 percent) units.

•   We project with 95 percent reliance that accountability discrepancies were recorded
    incorrectly at no greater than 3,691 (10.5 percent) units. The point estimate is
    1,063 (3.0 percent) units.

•   We are 95 percent confident that counts of the unit reserve, retail floor stock, and
    cash retained were not conducted at the required frequencies at between
    10,260 (29.2 percent) and 19,072 (54.3 percent) units. The point estimate is
    14,666 (41.7 percent) units.




                                                      13
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                              FF-AR-04-247
 Post Offices, Branches, and Stations


•   We are 95 percent confident that retail floor stock inventories were maintained in
    excess of a two-week sales limit, and that access to the floor stock was not
    adequately restricted with between 820 (2.3 percent) and 4,136 (11.8 percent) units
    utilizing segmented inventory accountability procedures. The point estimate is
    2,478 (7.0 percent) units.

•   We are 95 percent confident that PS Forms 3977, Duplicate Key Envelopes, were
    not properly prepared at between 7,473 (21.3 percent) and 16,281 (46.3 percent)
    units. The point estimate is 11,877 (33.8 percent) units.

•   We are 95 percent confident that                     were not destroyed at between
    3,844 (10.9 percent) and 10,708 (30.5 percent) units. The point estimate is 7,276
    (20.7 percent) units.

•   We are 95 percent confident that                   were not always used at
    between 6,804 (19.4 percent) and 14,225 (40.5 percent) units. The point estimate is
    10,514 (29.9 percent) units.

•   We are 95 percent confident that procedures for preparing bank deposits were not
    followed at between 1,649 (4.7 percent) and 7,048 (20.1 percent) units. The point
    estimate is 4,349 (12.4 percent) units.

•   We project with 95 percent reliance that supervisors did not ensure adequate
    separation of duties between acceptance and recording of post office box revenue at
    no greater than 4,098 (11.7 percent) units. The point estimate is 1,418 (4.0 percent)
    units.

•   We are 95 percent confident that the annual comparison of post office boxes to
    the correctly master list was not performed at between 2,461 (7.0 percent) and
    9,373 (26.7 percent) units. The point estimate is 5,917 (16.8 percent) units.

•   We are 95 percent confident that semiannual mail volume reviews were not
    performed at between 5,563 (15.8 percent) and 12,549 (35.7 percent) units.
    The point estimate is 9,056 (25.8 percent) units.

•   We are 95 percent confident inventory of nonaccountable retail merchandise was
    not conducted every Postal Service quarter at between 6,220 (17.7 percent) and
    14,310 (40.7 percent) units. The point estimate is 10,265 (29.2 percent) units.




                                                      14
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                      FF-AR-04-247
 Post Offices, Branches, and Stations


                    APPENDIX D. MANAGEMENT’S COMMENTS




                                                      15
                                            Restricted Information
Fiscal Year 2003 Financial Installation Audit –                      FF-AR-04-247
 Post Offices, Branches, and Stations




                                                      16
                                            Restricted Information
